WAIVE
SUPREME COURT OF THE UNITED STAIEgFICE
No.

OF THE CLERK

20-1324

Charles McManemy

Bruce Tierney, et al.

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by

the Court.
Please check the appropriate box:

0

I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Kirk Dolleslager, Rick Penning and Grundy County, Iowa

Please check the appropriate box:

0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

3/30/21

Date:

(Type or print) Name David E. Schrock
Mr.

0 Mrs.

0 Ms.

Firm

Smith Mills Schrock Blades, P.C.

Address

118 Third Avenue SE, Suite 200

City & State

Cedar Rapids, IA

Phone

(319) 286-1743

0 Miss

Zip 52404
Email dschrock@smithmillslaw.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Adam C. Witosky, Matthew M. Boles, Christopher Stewart
Gribble Boles Stewart & Witosky Law
2015 Grand Avenue, Suite 200
Des Moines, IA 50312

RECEIVED
APR - 7

2021

TH CLERK
orricE OF COU
_RT, U.S..
SUPREME

